GENERAL SERVICES ADMINISTRATION
OFFICE OF INSPECTOR GENERAL




         AUDIT OF PBS’S USE OF OCCUPANCY
         AGREEMENTS AS A BILLING SOURCE
         REPORT NUMBER A050263/P/R/R07002
                DECEMBER 28, 2006
                    AUDIT OF PBS’S USE OF OCCUPANCY
                    AGREEMENTS AS A BILLING SOURCE
                    REPORT NUMBER A050263/P/R/R07002

                            TABLE OF CONTENTS

                                                               PAGE
EXECUTIVE SUMMARY                                                i

INTRODUCTION                                                    1

     Background                                                 1

     Objective, Scope, and Methodology                          1

RESULTS OF AUDIT                                                3

     PBS has Made Strides to Improve Rent Bill Accuracy and
     Consistency                                                3

     Customer Service Can Be Further Improved                   4

            Explanations of Rent Rate Changes are Inadequate    4

            Resolutions of Customer Questions are Untimely      5

            Points of Contact are Inaccurate                    5

     PBS Takes Action to Address Accuracy and Consistency       6

CONCLUSION                                                      7

RECOMMENDATIONS                                                 7

MANAGEMENT COMMENTS                                             8

MANAGEMENT CONTROLS                                             8

APPENDICES

     Management’s Response to the Draft Report                 A-1

     Customer Satisfaction Survey of the PBS Rent Bill’s
     Accuracy and Consistency                                  B-1

     Report Distribution                                       C-1
                         AUDIT OF PBS’S USE OF OCCUPANCY
                         AGREEMENTS AS A BILLING SOURCE
                         REPORT NUMBER A050263/P/R/R07002

EXECUTIVE SUMMARY

Purpose
The objective of the audit was to determine whether the Occupancy Agreement (OA)
Billing process provides for more accurate, easier to understand customer bills as
compared to the prior billing process through the System for Tracking and Administering
Real Property (STAR), and if not, what improvements are needed.

Background
In April 2005, the Public Buildings Service (PBS) migrated from using STAR as the
primary billing source to a new rent billing process – OA Billing. Under the STAR
billing process, rent bills could be inconsistent because changes in one data field of a
building could impact the rent bill for all of its tenants. The OA billing process extracts
billing data directly from the final OA that was created or modified through the OA Tool1
system. PBS anticipated several advantages from OA billing including: stabilizing the
bill by isolating the individual rent bill from the effect of changes that occur elsewhere in
the building; improving the accuracy of the bill corresponding to the current OA; and
reducing the data input workload.

Results in Brief
According to rent bill customers, the use of the OA Billing process has resulted in
improvements in the accuracy and consistency of rent bill data, however further
improvements in meeting customer expectations are needed. PBS is taking action to
address rent bill accuracy and consistency through its Rent Bill Management Program
(RBMP). However, the RBMP will not necessarily address lingering dissatisfaction with
customer service issues identified in a 2003 PBS customer satisfaction survey and
reinforced by the latest survey conducted by the Office of Inspector General. Customer
service issues that remain a problem include: a lack of detailed information on the
customers’ rent bills regarding rate changes; PBS not responding to customer calls or
resolving questions in a timely manner; and inaccurate GSA points of contact listed on
the rent bill.

Recommendations
To remedy the situation, PBS needs to take steps to ensure customer service issues facing
the OA Billing process are addressed. These steps include providing additional
information on the rent bills regarding rate changes and Miscellaneous Billing
Adjustments. Customer service could be improved by implementing a methodology to
ensure timely resolution of customer rent bill questions and implementing management
controls to ensure accurate rent bill points of contact.


1
 OA Tool is a web-based application that was implemented in March 2004 and enables the user to create
an OA for a client agency.



                                                   i
                     AUDIT OF PBS’S USE OF OCCUPANCY
                     AGREEMENTS AS A BILLING SOURCE
                     REPORT NUMBER A050263/P/R/R07002

Introduction
Background

In April 2005, the Public Buildings Service (PBS) migrated from using the System for
Tracking and Administering Real Property (STAR) as the primary billing source to a new
rent billing process – Occupancy Agreement (OA) Billing. Under the STAR billing
process, rent bills could be inconsistent because changes in one data field of a building
could impact the rent bill for all of its tenants. The OA billing process extracts billing
data directly from the final OA that was created or modified through the OA Tool system.
PBS anticipated several advantages from OA billing including: stabilizing the bill by
isolating the individual rent bill from the effect of changes that occur elsewhere in the
building; improving the accuracy of the bill corresponding to the current OA; and
reducing the data input workload.

Objective, Scope, and Methodology

The main focus of the audit was to determine whether the OA Billing process provides
for more accurate, easier to understand customer bills as compared to the prior billing
process through STAR, and if not, what improvements are needed.

To accomplish this audit objective we performed fieldwork in the National Capital
Region, the Southeast Sunbelt Region and the National Office. During fieldwork, we
performed the following tasks:

∗   Obtained background information including: the prior PBS customer satisfaction
    survey; results of PBS performance measures reviews; prior GSA-Office of Inspector
    General reports; PBS policies and procedures; and PBS’s Rent Bill Management
    Program and Human Capital Asset Management documents.
∗   Surveyed 1,225 PBS customers regarding their satisfaction with the PBS rent bill’s
    accuracy and consistency.
∗   Held discussions and corresponded with numerous individuals to obtain their
    assessment of the use of OA’s as the billing source. This included PBS customers,
    National Office and Regional PBS Management, Contracting Officers, Realty
    Specialists, Budget Analysts; and individuals responsible for verifying and inputting
    the data into OA Tool.
∗   Analyzed the consistency of the Client Billing Records (CBR’s) from March 2005
    through September 2005 for 50 OA’s.
∗   Compared the accuracy of the rent bill rates to source documents for 44 OA’s.




                                            1
Audit information was obtained primarily between December 2005 and August 2006.
The audit was performed in accordance with generally accepted Government auditing
standards.




                                       2
                        AUDIT OF PBS’S USE OF OCCUPANCY
                        AGREEMENTS AS A BILLING SOURCE
                        REPORT NUMBER A050263/P/R/R07002

Results of Audit
According to rent bill customers, the use of the OA Billing process has resulted in
improvements in the accuracy and consistency of the rent bill data, however, further
improvements in meeting customer expectations are needed. PBS is taking action to
address rent bill accuracy and consistency through its Rent Bill Management Program
(RBMP). However, the RBMP will not necessarily address lingering dissatisfaction with
customer service issues that were identified in a 2003 PBS customer satisfaction survey
and reinforced by the latest survey conducted by the Office of Inspector General.
Customer service issues that remain a problem include: a lack of detailed information on
the customers’ rent bills regarding rate changes; PBS not responding to customer calls or
resolving customer rent bill questions in a timely manner; and inaccurate GSA points of
contact listed on the rent bill.

PBS has Made Strides to Improve Rent Bill Accuracy and Consistency

In the opinion of both customers and PBS employees, improvements in the overall
accuracy and consistency of the rent bill data have been realized. In March 2006, the
Office of Inspector General surveyed 1,2252 customers regarding their satisfaction with
the PBS rent bill’s accuracy and consistency. A total of 263 customers responded to the
questionnaire; a 21 percent response rate. The survey focused on aspects of customer
service such as the accuracy and consistency of the rent bill, the adequacy of explanations
for changes to the rent rate and miscellaneous billing adjustments, and customer
satisfaction regarding the resolution of their questions by PBS. Details regarding the
survey responses are contained in Appendix B.

In our customer survey, 60 percent of the respondents have noticed some level of
improvement. A total of 17 percent responded that they noticed a significant
improvement whereas 43 percent noticed a slight improvement. PBS employees have
also noticed an improvement with the transition to OA Billing in the form of less
customer calls regarding billing rates. Additionally, less data entry is needed due to self-
populating fields in the OA Tool.

During our audit, we also performed a limited review of the accuracy of Client Billing
Records (primarily through February 2006) by comparing the rent rates to the OA as well
as to the corresponding lease or appraisal file3 for 44 OA’s. We found that 39 of the rent
rates were accurate, while four rates were inaccurate and one rate was unsupported. The

2
  The survey universe consisted of 1,325 customers who receive the rent bill. We removed 17 GSA and/or
Senate customers and 83 emails that were returned as undeliverable. This resulted in a sample size of
1,225.
3
  We did not review the supporting lease documents or appraisal files for accuracy or compliance with
policy.



                                                  3
inaccurate rates were due to the incorrect application of a Rentable/Usable Factor, an
inaccurate operating cost, and inaccurate parking rates. Additionally, one of the lease
files in our original sample was not located during our review. It should also be noted
that sufficient supporting data for 14 out of 44 OA’s was not initially in the files, but the
majority of the documents were subsequently provided.

Customer Service Can Be Further Improved

Customer survey responses indicate that PBS can further improve customer service by
addressing the two dominant areas of concern: customers are generally not satisfied with
the explanation of the rate changes on the rent bill; or with the resolution of the rent bill
questions posed to GSA. Related areas of concern identified during our audit work were
that the accuracy of the GSA points of contact on the rent bills and the timeliness of
responses to customer inquiries needs improvement.

Explanations of Rent Rate Changes are Inadequate

One major theme throughout the customer survey was that customers were generally not
satisfied with the explanation of the rate changes on the rent bill. Responses to one
survey question that specifically asked about this indicated that 43 percent of the
respondents were generally dissatisfied with the rate explanations (27 percent
dissatisfied, 16 percent slightly dissatisfied). Results for three other questions also
denoted customer dissatisfaction with the adequacy of the explanations of rate changes on
the rent bill.4

We reviewed the CBRs for the period March 2005 through September 2005 for 50 OA’s;
especially for changes to the rent rates and miscellaneous billing adjustments. During
this review of the rent bills we identified 29 rate changes, 16 of which were not
adequately explained on the rent bill. The reasons for these rate changes were simply
noted as “other” on the rent bill. Nine of these 16 instances were explained in detail in
the OA Tool system. However, only GSA employees or contractors can access these
explanations. Likewise, we identified 38 Miscellaneous Billing Adjustments (MBA’s) of
which 18 were not adequately explained on the rent bill. However, 17 of these 18 were
explained in detail in OA Tool.

Customers were asked in the survey “I think the best thing GSA could do to improve the
rent bill would be to…” Thirty percent of the respondents to this question stated that the
best thing GSA could do is explain the changes on each bill in more descriptive language.
This was also the most recommended improvement in PBS’s April 2003 rent bill survey.
Forty one percent of that survey’s respondents cited explaining changes on each bill in
more descriptive language as the best thing GSA could do to improve the rent bill.
During discussions with us, National Office officials stated that this situation is being
addressed by issuing new OA’s to customers when a rent rate change is made. These
new OA’s are to include a clause explaining the rent rate change in detail. Including

4
 See Appendix B questions number 4, 6, and 7 to view the other questions that indicated customer
dissatisfaction with the adequacy of the explanations of the rate changes on the rent bill.



                                                   4
detailed explanations on new OA’s is a good first step for clarifying rate changes.
However, this problem may persist since many of the customers who receive the OA’s
are not necessarily the same person who receives the rent bill. Also, new OA’s are not
required for MBA’s, although they can be generated if needed. Thus, detailed
explanations may not reach those who are actually processing the rent bills. To increase
customer satisfaction, PBS should consider ways of providing additional information on
the rent bills regarding rate changes and MBA’s, or possibly allow customers to access
the OA Tool to view the detailed explanations.

Resolutions of Customer Questions are Untimely

Another major theme regarding GSA customer service is with the resolution of customer
questions posed to GSA. Although 31 percent of the survey respondents were highly
satisfied, or satisfied, with the resolution of their questions posed to the GSA, another 30
percent of customers were dissatisfied, or slightly dissatisfied.

According to the survey, 70 percent of the customers who responded unfavorably
regarding the resolutions of their questions noted that they were not acknowledged in a
timely manner.5 Survey respondents also provided their own comments regarding the
length of time it took to contact GSA and for the resolution of errors in the rent bill. For
example one customer remarked, “the most frustrating and problematic situation is the
non-responsiveness to inquiries and then once a solution/corrective action is determined
the amount of time it takes for GSA to implement.” Another customer responded, “It
takes forever to get action on errors on rent bills. It is a very low priority with GSA.”
We also contacted 7 survey respondents of which 2 provided us with examples of rent
bill disputes that took as long as 33 months to resolve. Disputed items included tax bill
escalations, parking charges, space measurements, and billing of vacated space. During
our audit, we also experienced significant time lags between when we contacted the rent
bill’s designated Point of Contact (POC) via interview, voice messages, and emails and
the time PBS resolved our questions. While some POC’s responded quickly, others took
almost 4 months to resolve our questions. In 3 instances, we received no response from
the POC.

Points of Contact are Inaccurate

Overall, 43 percent of the customers who responded unfavorably noted that their
questions were not resolved and GSA did not provide a sufficient explanation as to why
the issue could not be resolved. One of the underlying causes of this appears to be
accuracy issues regarding the point of contact listed on the rent bill. This may be an
explanation for customer survey comments such as, “Phone calls are not returned or
letters answered” and “I have never received a return contact despite numerous e-mails
and phone messages to my request or concerns.” Similar opinions were expressed in
PBS’s April 2003 customer survey. This survey contained comments such as, “Why
does GSA bother to put the name of a person on a CBR when that person almost never


5
    PBS officials defined “acknowledged customer questions in a timely manner” as within 2 working days.



                                                     5
has any information about the assignment and usually doesn’t understand why I am
calling the them.”

According to 38 percent of the survey participants who responded unfavorably, the GSA
contact point listed on the rent bill was incorrect. In our review sample, 16 percent of the
rent bills listed an incorrect POC. In fact, one POC had been retired for nearly a year.
We also noted that 35 percent of the POC’s for our sample changed within the time
period of our review. Finally, 37 percent of the survey participants responded that the
GSA POC could not answer their question. In most instances during our review, we did
eventually receive adequate answers and supporting documentation to our questions,
although the POC may have required assistance from another PBS employee or a PBS
contractor. PBS National Office recognizes the importance of the accuracy of the POC
information, and verifies the accuracy of the POC on a sample of rent bills annually, as
part of the data accuracy performance measure. PBS’s response to our draft report notes:
“During the FY 2006 data accuracy sampling, a total of 1,137 CBRs were reviewed.
Thirty-one of the CBRs listed an incorrect point of contact on the Rent bill. The
identified 31 contact errors were found in 5 of our regions. The errors ranged from one
error to 16 errors in each region. In five regions, no contact errors were identified.”

PBS Takes Action to Address Accuracy and Consistency

PBS is implementing multiple initiatives to promote the accuracy and consistency of the rent
bills and improve the resolution of customer inquiries. As part of the RBMP, in May 2006
GSA began a national review to verify that the rent bills are accurate and consistent. The
RBMP, initiated in March 2006, is a national standardized business process that will require
more effort in the early stages of the transaction to prevent errors prior to entry. Every input
request to the OA Tool and STAR, which will be entered through a centralized data entry
point, is to be checked for accuracy against submitted source documents. Quality Assurance
points will be centralized, and all criteria must be met in order for billing to take place.
According to PBS, this program requires compliance with PBS policy, complete source
documents prior to data entry, and specific billing deadlines.

The resolution of customer inquiries may also improve as PBS reviews its business processes
and realigns the way services are delivered to customers under the Human Capital Asset
Management initiative. One area being improved is PBS’s Customer Financial Relationship
Management that includes several tasks related to managing the ongoing financial relationship
with the customer including explaining financial data, and reconciling or resolving billing
issues.

PBS feels that, with the expected data accuracy improvements under the RBMP, there will be
fewer questions to resolve and that issues regarding resolution of questions will be better
addressed as Customer Financial Relationship Management is improved. PBS officials stated
that if resolution of questions continues to be an issue, they would consider implementing a
tracking system to help manage the resolution process and reduce the time required to resolve
customer inquiries. While the number of inquires may be reduced as accuracy increases
through the RBMP, the RBMP will not address the inaccurate GSA points of contact on the
rent bill or the failure of GSA employees to return phone calls or email messages in a timely


                                               6
manner. Regional PBS employees must ensure current POC information is transmitted to the
centralized billing group for verification and ensure customer inquiries receive a prompt
response.


Conclusion
Although PBS is taking actions to ensure the accuracy and consistency of the rent bill
through the data accuracy reviews and the RBMP, the customer survey clearly shows
improvements are needed in the area of customer service. Through the survey, customers
have expressed the need for improvements concerning more complete explanations of the
rate changes on the rent bill, accurate GSA points of contact on the rent bill, timely
responses to their inquiries and better resolution of their questions. To improve the
clarity of the rent bill, PBS should assess ways of providing additional information on the
rent bills regarding rate changes and MBA’s or possibly allow customer access to the OA
Tool to view the detailed explanations. The addition of management controls and
methodologies targeting customer dissatisfaction could lead to more timely resolution of
customer questions, make POC’s more accountable for the resolution process, and
increase customer satisfaction.

PBS officials have stated that if resolution of questions continues to be an issue, they may
consider implementing a tracking system to help manage the resolution process and
reduce the time required to address customer inquiries. Implementing such a system
might provide PBS officials with a tool that would identify the roadblocks that lead to
customer dissatisfaction.


Recommendations
We recommend that the Commissioner of the Public Buildings Service take steps to
ensure customer service issues related to OA billing are addressed by:

   1. Developing and implementing a methodology to provide customers with
      additional information to explain rate changes and MBA’s.

   2. Working with regional management to,

           a. Develop and implement a methodology to ensure that customer questions
              regarding rent bills are resolved in a timely manner.

           b. Develop and implement management controls to ensure that the GSA
              point of contact listed on the rent bill is correct.




                                             7
Management Comments
The PBS Commissioner has provided comments to this report, which we have included in
their entirety as Appendix A. Management concurred with the report findings. Changes
were made to this report to incorporate points made in Management’s comments.


Management Controls
As discussed in the Objective, Scope and Methodology section of this report, the review
focused on aspects of the OA billing process. Related management control issues are
discussed in the context of the review findings.




                                          8
APPENDICES
APPENDIX B

                     AUDIT OF PBS’S USE OF OCCUPANCY
                     AGREEMENTS AS A BILLING SOURCE
                     REPORT NUMBER A050263/P/R/R07002

  Customer Satisfaction Survey of the PBS Rent Bill’s Accuracy and Consistency

The General Services Administration (GSA), Office of Inspector General (OIG), Office
of Audits received responses from 263 participants in the survey (21% response rate).
Attached is a summary of the information provided in the responses. The survey was
sent to 1,225 PBS Rent Bill Customers.

1) Since the time PBS has implemented Occupancy Agreement Billing in April 2005,
   have you noticed an improvement in the accuracy and consistency of the Rent Bills
   data?
   Number of Respondents = 263

       17%    Significant improvement (46)
       43%    Slight improvement (113)
       25%    No improvement (67)
        3%    Decrease in the accuracy and consistency (7)
       11%    Not applicable (30)

2) When Billing Adjustments or Rate changes are noted on your Rent Bill, are you
   satisfied with the explanation of those changes detailed on the Rent Bill?
   Number of Respondents = 261

       27%    Dissatisfied (70)
       16%    Slightly Dissatisfied (42)
       22%    Mostly Satisfied (57)
       24%    Satisfied (63)
        3%    Highly Satisfied (8)
        8%    Not applicable (21)


3) When you have questions regarding your Rent Bill and you call your GSA Contact,
   how satisfied are you with the resolution of your questions?
   Number of Respondents = 261

       15%    Dissatisfied (38)
       15%    Slightly Dissatisfied (38)
       27% Mostly Satisfied (70)
       22%    Satisfied (58)
        9%    Highly Satisfied (24)
       13%    Not applicable (33)

                                           B-1
APPENDIX B

    3a) What was the nature of dissatisfaction to your questions? (check all that
    apply)
    Number of Respondents = 76         Respondents could check more than one
    answer
    36%    Your Bill does not reflect your final Occupancy Agreement (OA). (27)
    38%    Incorrect GSA Contact person listed on the Rent Bill. (29)
    37%    GSA contact person could not answer your question. (28)
    70% Your question(s) were not acknowledged in a timely manner (less than
        2 working days). (53)
               (If marked, complete the question 3b)
    43%    Your question(s) were not resolved without sufficient explanation. (33)
               Other--For the 16 respondents, the major complaint was the length
               of time it took them to get in contact with a GSA associate and/or
               the length of time it took GSA to rectify the problem and have the
               correction appear on the rent bill.


    3b) If your question(s) were not acknowledged within 2 working days,
           ****The survey format may have skewed these responses. Most
               comments indicate respondents are contacting regional GSA
               personnel****
             Number of Respondents = 53
    -   did you contact the region or central office (CO) in Washington D.C.?

           CO        _47
           Region      6

    -   what was the method of contact,
    -   Number of Respondents = 12 Some Respondents checked more than one
        answer

        telephone __9__ E-mail __10__ cellular phone ____            Other __2__




                                       B-2
APPENDIX B

4) Please check one answer to complete the following sentence.
   Number of Respondents = 260

   I think the best thing GSA could do to improve the rent bill would be to:

       21% Provide bill summary pages giving more information regarding number of
           new space assignments, change in square footage and other changes
           since the last bill (56)
       16% Improve accuracy and timeliness of changes (42)
        9% Make no changes to the rent bill amount after the beginning of the fiscal
           year not related to agency requested changes or to expiring leases. (24)
       30% Explain changes on each bill in more descriptive language. (78)
        3% Bill quarterly or less often. (8)
        5% Provide the OA prior to the first rent bill (13)
       11% Leave the Rent Bill as it is. (28)
        4% Other (11) Majority of other comments addressed the need for GSA
           to: Explain changes on each bill in more descriptive language;
           Improve accuracy and timeliness of changes; Respond to customer
           inquiries in a timely manner.


5) Do you like the Rent Bills rounded to whole dollars, as they are now?
   Number of Respondents = 260

         __86%      Yes (224)                   14%     No (36)




                                          B-3
APPENDIX B

Rent Bill Questions
6) The Rent Bill portion of the PBS bill is divided into four sections and sixteen line
   items. Please rank your satisfaction according to the following scale and mark the
   reason for rank 0, 1, and 2. Please comment below for ‘other’ reasons.

     The number of respondents varied for the line of the rent bill, as did the number of
     respondents who indicated the reason they were not fully satisfied. The number behind
     the Line explanation is the total number of respondents who answered this line of
     Question Number 6. The numbers under the column headings indicate the total
     number of respondents who provided this satisfaction ranking to the survey question
     and the total number of respondents who noted this reason for the ranking.

     The majority of the respondents were satisfied with the line items on the rent bill. For
     those that were not fully satisfied, the major reason was the Line contains
     unexplained/poorly explained changes.

                     Satisfaction Rank                                             Reasons for mark 0,1,& 2
                     0 = Dissatisfied                                              A: Inaccuracy
                     1 = Slightly dissatisfied                                     B: Unexpected changes
                     2 = Mostly satisfied                                          C: Line contains
                                                                                   unexplained/poorly
                     3 = Satisfied                                                     explained changes
                     4 = Highly Satisfied                                          D: Disagree with Pricing Policy
                     5= Not Applicable                                             E: Known charges, but continue to
                                                                                   disagree
                                                                                   Other (Please comment below)



                                                                           Satisfaction Rank             Reason for marking 0,1, & 2

                                                                 0    1     2       3      4        5    A     B        C       D      E
A.   Line 1, Shell Rental Rate --219                             6    7      27     137        29   13   9     7        17      5      2
B.   Line 2, Amortized Tenant Improvement Used/General—
                                                                 7    11    22      126    25       29   3     5        23      3      2
     220
C.   Line 3, Operating Rent—214                                  3    14    33      126        24   14   4     8        34      2      2

D.   Line 4, Real Estate Taxes—214                               14   16    25      109        19   31   3     14       29      2      2
E.   Line 5, Amortized Tenant Improvement
                                                                 7    7     28      118    23       31   3     5        23      5      1
     Used/Customization—214
F.   Line 6, GSA-Installed Building Improvements—207             8    7     25      91     14       62   2     6        21      5      1

G.   Line 7, Building Security Features (Magnetometers)—208      13   11    27      91     16       50   2     10       20      8      6

H.   Line 7d. Building Specific Amortized Capital—206            10   12    27      92     13       52   2     9        25      4      3

I.   Line 9a, Parking – Structured—212                           8    11    17      115        28   33   1     5        17      6      -

J.   Line 9b, Parking – Surface—211                              7    10    18      120    27       29   -     5        19      6      -

K.   Line 10, Rent for Other Space—206                           10   9     16      89         19   63   3     5        17      2      3

L.   Line 11, PBS Fee—211                                        17   17    28      106    24       19   3     8        27      11     4
M.   Line 12a, Pro Rata Joint Use Charges – Building
                                                                 11   16    31      99     18       30   4     10       33      6      1
     Amenities—205
N.   Line 12b, Pro Rata Joint Use Charges – Structured
                                                                 8    11    20      107    16       44   2     7        21      3      3
     Parking—206
O.   Line 12c, Pro Rata Joint Use Charges – Surface Parking—
                                                                 8    9     20      112    16       43   1     8        18      3      3
     208


                                                               B-4
APPENDIX B

P.   Line 13, One-Time Payments—204                            10   16   22    80    15   61    1    5     35    2    2
Q.   Line 14a, Billing Adjustments & Corrections – Current
                                                               29   35   32    76    12   23    6    12    68    2    3
     Year—207
R.   Line 14b, Billing Adjustments & Corrections – Prior
                                                               33   26   33    71    12   31    8    14    58    2    3
     Year—206
S.   Line 14c, Billing Adjustments & Corrections – Rent
                                                               18   15   20    67    10   74    3    6     35    1    2
     Exemption—204
T.   Line 14d, Billing Adjustments & Corrections –
                                                               21   20   22    62    8    70    2    7     43    1    3
     Administrative Adjustment—203
U.   Line 14e, Billing Adjustments & Corrections –
                                                               11   11   12    56    10   100   2    5     19    2    -
     TrustFund Adjustment—200
V.   Line 15, Antenna—205                                      6    3    13    99    19   65    2    3     7     5    1

W.   Line 15a, Antenna Charges—201                             9    3    13    92    17   67    1    3     7     7    2

X.   Line 15b, Adjustments – Current Year—203                  16   15   21    85    12   54    2    10    32    2    1

Y.   Line 15c, Adjustment – Prior Year—203                     16   15   21    82    10   59    3    6     36    1    1

Z.   Line 16, Reimbursable Services—203                        5    11   14    72    14   87    -    5     19    4    1

AA. Line 16a, Overtime Utilities—201                           11   6    16    69    12   87    2    4     14    7    4

BB. Line 16b, Enhances Custodial Services—200                  3    5    10    67    10   105   -    1     12    3    1

CC. Line 16c, Mechanical O&M – HVAC—201                        3    6    9     74    8    101   -    1     14    1    -

DD. Line 1d, Mechanical O&M – Current Year—200                 3    5    9     73    8    102   -    1     12    1    -
EE. Line 16e, Adjustments – Current Year—199                   8    7    21    71    9    83    1    2     24    1    2
FF. Line 16f, Adjustments – Prior Year—197                     8    8    21    68    9    83    3    1     24    1    1

Percentage of respondents for the column                       5%   6%   10%   44%   8%   27%   6%   16%   64%   9%   5%




     Comments on Other:
     Number of Respondents = 45 While several respondents provided unique
     comments, the following were the categories receiving multiple comments.

     Provide detailed explanations for the changes to the bill/for what is included in the
     bill. (16)
     Make known price adjustments and changes in a timely manner. (6)
     GSA antenna charges are too high. (3)
     Were unaware reimbursable charges could be handled through the rent bill. (2)




                                                             B-5
APPENDIX B

7) Please provide any additional comments you feel would make the format of the PBS
   Rent Bill or the billing process better meet your agency needs. You may also expand
   on any answers that you provided above in the space provided below, if needed.

   Number of Respondents = 83 While several respondents provided unique
   comments, the following were the categories with multiple comments.

   Provide detailed explanations for the changes to the bill. (30)
   Provide detailed explanations for what is included in each line item of the bill, i.e.,
   shell rent and joint use charges. (10)
   Make known price adjustments and changes to the OA’s in a timely manner. (10)
   Provide a timely response to customer questions. (7)
   The Regions have inconsistent procedures. (3)
   Provide better training to all involved parties. (2)
   GSA contact person is inaccurate. (2)




                                            B-6
APPENDIX C

                            AUDIT OF PBS’S USE OF OCCUPANCY
                            AGREEMENTS AS A BILLING SOURCE
                            REPORT NUMBER A050263/P/R/R07002

                                             Report Distribution



                                                                                                         Copies

Commissioner, Public Buildings Service (P)................................................................. 3
Regional Administrator, Southeast Sunbelt Region (4A).............................................. 1
Regional Administrator, National Capital Region (11A) .............................................. 1
Regional Inspector General for Auditing (JA-4, JA-W)................................................ 2
Regional Inspector General for Investigations (JI-4, JI-W)........................................... 2
Office of the Chief Financial Officer (B) ..................................................................... 2
Assistant Inspector General for Auditing (JA, JAO) ..................................................... 2
Assistant Inspector General for Investigations (JI)........................................................ 1
Branch Chief, Audit Follow-up and Evaluation Branch (BECA)…………..…………1




                                                        C-1
